                               CLOSEOUT FOR M97030009

       OIG received a copy of a letter sent by a former graduate student to his university's
vice provost for research.' In his letter, the student alleged that his academic progress
had been wrongfully impeded by his first and second advisors.' We received additional
information from the student, and upon request the university provided its records
pertaining to its handling of the allegati~ns.~

       Because the actions ascribed by the student to the first advisor did not relate in
any way to NSF funding, we did not evaluate them. He alleged that the second advisor
impeded his progress as a graduate student by (1) not allowing him t o proceed in meeting
certain curricular requirements based o n unreasonable demands for research results;
(2) not agreeing that certain research results should be written up for publication; and
(3) creating a hostile work environment for him after he ended a brief (one-month)
romantic/sexual relations hip.

        The university did not explicitly address the first allegation, pertaining to the
second advisor disagreeing with the student regarding whether his accomplishments in
the laboratory reflected adequate progress toward meeting departmental academic
requirements. However, in academic research environments judgements of this nature
are typically left to the discretion of research advisors. The student's unsubstantiated
allegation in this case is not sufficient to warrant our attemptko to determine whether
the second advisor exceeded the scope of her discretion.

       The university formed a committee4 to evaluate w h c h of the issues raised by the
student "could possibly fall within the definition of 'scientific n~sconduct."'~ The
conunittee concluded that the "issue of publishing research data m a timely fashion was
not felt to be an issue of scientific misconduct, but, rather, an s s u e where different

   [REDACTED] was a graduate student at the ['REDACTED].   His letter date3 2 1 January 1997 was
addressed to the Vice Provost for Research at [REDACTED], [REDACTED].
2
    Drs. [REDACTED] (the first advisor) and [REDACTED](the second advisor) were with the
Department of [REDACTED],   [REDACTED], [REDACTED]. The first advisor was not a P.1. for any
NSF awards; NIH funded the award under which the student was paid. The second advisor was
PI on NSF grant [REDACTED], which was awarded [REDACTED],expired [REDACTED],and totaled
$ [REDACTED].
3
   We issued a subpoena to the university to facilitate provision of the student's academic
records.
    The " [REDACTED]."
    Final Report of the committee, dated 20 March 1997, at 2.


                                           Page 1 of 2
                                    CLOSEOUT FOR M97030009

    laboratories publish at different rates, and the vote was unanimous that there were no
    issues of scientific misconduct against" the second a d ~ i s o r . ~We agree with this
    conclusion.

        The university office responsible for handling harassment/discrirnination
complaints7addressed the third allegation. It found that although the second advisor had
participated in a brief intimate relationship with the student, the evidence did not support
a conclusion that her conduct following the affair constituted a hostile work
environment. The office determined that the second advisor's action violated the
university's sexual harassment policy, which prohibits all romantic/sexual relationships
between students and their in~tructors.~    In our view, the office's conclusions about the
facts are reasonable, and the second advisor's actions could not be considered misconduct
in science.

            This inquiry is closed and no further action will be taken in this case.



cc:         Integrity, IG




      Id.
      The [REDACTED].
8
     The only sanction imposed was a formal reprimand by the university's executive dean.


                                             Page 2 of 2                                    M97-09
